CERTIFICATE OF SERVICE
BY MAIL

Case No. 19-2516

Enclosed for service please find (1) Plaintiff-Appellant Robert V. Bolinske’s Petition for
a Writ of Certiorari and (2) Appendix thereto.
A

Robert V. Bolinske does hereby certify that he placed these documents in the United

States mail, postage pre-paid, addressed to Attorney Matthew Sagsveen, Esq., 500 N. 9th Street
Bismarck, ND 58501 on January 4, 2021.

Robert V. Bolinske
Attorney Pro Se
7600 Northgate Drive
Bismarck, ND 58504
701-390-6015

£

